OIG Audit Report

United States Marshals Service Intergovernmental Service Agreement 
for Detention Facilities with the Multnomah County Sheriffs Office, Portland, Oregon 
Office of the Inspector General



Executive Summary


The United States Marshals Service (USMS) assumes  custody of individuals arrested by all federal agencies and is responsible for  the housing and transportation of prisoners from the time they are brought into  federal custody until they are either acquitted or incarcerated.  Each day, the USMS houses more than 47,000  detainees throughout the nation.  In  order to house these pre-sentenced detainees, the USMS establishes  Intergovernmental Service Agreements (IGA) with state and local governments to  rent jail space.  According to the USMS,  75 percent of the detainees in USMS custody are detained in state, local, and  private facilities. 
On January 1, 2001, the USMS established an  IGA, number 65-01-0028, with the Multnomah County Sheriff’s Office (MCSO),  located in Portland, Oregon.  According  to the IGA, prisoners are housed in the MCSO facilities at a rate of $115.90  per jail day.1   According to Multnomah County records, the  MCSO was paid $6,218,383 under the IGA for the 12 months ending June 30, 2004,  and $5,003,403 for the 12 months ending June 30, 2002.
The  purpose of the audit was to determine if the allowable costs for the detention  and care of inmates under the Office of Management and Budget Circular A-87,  “Cost Principles for State, Local and Indian Tribal Government” supported the  jail day rate.2   Based on our audit of actual costs and daily  population, we determined that the MCSO records supported a jail day rate of  $111.96 which resulted in questioned costs of $655,525.  


 

Footnotes

A jail day is the equivalent of one person  incarcerated for one day and begins on the date of arrival, but does not  include the date of departure.
The objectives, scope, and methodology of this  audit are discussed in more detail in Appendix I. 





 




Return to OIG Home Page